      United States Department of the Interior
                  Office of Inspector General


                                                                    November 4, 2008

Memorandum

To:            Debra E. Sondennan
               Director, Office of Acquisition and Pro

From:          Earl E. Devaney      (J        n C!
               Inspector General   ~               l\
Subject: -     Department of the Interior (DOl) Fuels Consumptio
               Incorrectly Reported (C-IS-MOI-0008-2008)

The Office ofInspector General (OIG) initiated an inspection to determine whether
DOl is meeting specific requirements of Executive Order 13423, "Strengthening
Federal Environmental, Energy, and Transportation Management." Using a base
year of FY 2005, this Order requires agencies to decrease consumption of petroleum-
based fuels by 2 percent annually, and to increase consumption of alternative fuels by
10 percent annually.

We terminated our inspection because we found both petroleum-based and alternative
fuel consumption figures to be significantly flawed. DOl reported a 6 percent
decrease in the consumption of petroleum-based fuels from FY 2005 to FY 2007.
We determined, however, that DOl misreported its fuel consumption due to errors
with bureaus' fuel data. Based on corrections of known errors, we estimate that DOl
may have increased its consumption by as much as 22 percent for that period. Poor
data quality also calls into question DOl's reported 58 percent increase in alternative
fuel consumption.

This report contains two recommendations that, if implemented, should correct
reporting errors in the FY 2005 baseline and more accurately reflect DOl fuel
consumption performance when reported to the u.S. Congress and the Department of
Energy.

We would appreciate being kept apprised of the actions DOl takes on our
recommendations as we will track the status of their implementation. Please provide
a written response to our office within 30 days that identifies plans to address the
findings and recommendations cited in this repOli.
                                  001 Fuels Consumption Data is Incorrectly Reported


                                  In response to the requirements        of Executive Order 13423, "Strengthening                       Federal Environmental,

                                  Energy, and Transportation         Management,"      the Department           ofthe    Interior (001) has reported its

                                  fuel consumption       performance    to the Department       of Energy (DOE) for FY 2005 through FY 2007.

                                  The Office of Inspector General (OIG) took the opportunity               to assess 001 fuel consumption                  data for

                                  its bureaus' fleets.


                                  001 reports that it has exceeded both its petroleum fuel reduction requirements                            and its goal of

                                  increasing alternative fuel consumption.          However, we determined                that 001 misreported         fuel

                                  consumption       due to errors in the bureaus' fuel data. In terms of petroleum-based                       fuels, we

                                  estimate that 001 may have actually        increased      its consumption        by as much as 22 percent from FY

                                  2005 to FY 2007. Poor data quality also calls into question the reported 58 percent increase in

                                  alternative fuel consumption.        As a result, we were unable to determine                   whether     001 is meeting
                                  the fuel consumption      requirements    of Executive Order 13423 and terminated                        our inspection.




                                                           Bureau of       United States
                       Hurp<lu of         !-Ish <lnrl                                           l:lurp<llJ of             nfflC:P. of          Mlner<lls
Natlon.::lll-'<lrk                                           L<lnd          Gf'OloglC:<l1
                     Indian Affairs       Wildlife                                             Reclamation                Surface            Management
Servlce{N:>S)                                             Management          Survey
                         (BIA)         service (FWS)                                              (BOR)                    Mining              Service
    10,693                                                   (BLM)            (USGS)
                         7,608             7,261                                                  1,961                    (OSM)                (MMS)
   Vehicles                                                  5,497             4,460
                       Vehicles          Vehicles                                                Vehicles               150 Vehicles         40 Vehicles
                                                            Vehicles         Vehides
                       The bureaus are required to comply with Executive Order 13423 due to their fleet sizes
Executive Order 13423 requires federal agencies to decrease petroleum fuel con-
sumption by 2 percent annually                       Reported            Decrease in Petroleum          Fuel Consumption
from a FY 2005 baseline. In its re-              Reported       to DOE in the E.O. 13423 Fuel Consumption                  Report


port to DOE, 001 states that it re-
duced petroleum-based         fuels con-              18,000

                                                       16,000
sumption by 3 percent in both FYs                      14,000

2006 and 2007 and reports reduc-                       11,000

                                                      10,000
tions in petroleum fuels of approxi-
                                                        8,000

mately 1.3 million gallons over the 2-                  6,000

                                                       4,000
year period. In fact, we estimate
                                                        1,000    L-- /
that 001 may have increased petro-
                                                                           2005                1006               2007
leum fuel consumption        by as much
as 22 percent from FY 2005 to FY 2007.



Seven of Eight 001 Bureaus Report Petroleum Consumption
Increases

DOl's bureau fleet managers report their fuel consumption                                    into the Federal Automo-
tive Statistical Tool (FAST), a compliance reporting database managed by DOE. Inter-
estingly, seven of DOl's eight bureaus' input increases in petroleum consumption                                              from
FY 2005 to FY2007; these range from 2,700 gallons for Minerals Management Service
(MMS) to 2.9 million gallons for Bureau of Indian Affairs (BIA).

Only the U.S. Geological Survey (USGS) reported a decrease - 6 million gallons,
which more than offset the other bureaus' increases. The result is the overall re-
ported decrease in petroleum consumption.                       We found, however, that USGSmisre-
ported its petroleum consumption           and that other bureaus' data contained errors, as
well.
                   Sevenof    Eight Bureaus     Reported         Increased           Petroleum                             ·6 Million
                                                                                                                             gallons
                             Consumption       in FAST from          2005         2007
                                                                                                      2,9 fI.'iillion
                                                                                                        g"lIom


                                                                                  6.50,000
                                                      590,000                     g"lIom
                                     HS,OOO            g"lIom
                       124,000
                                      g"lIom
                        g"lIom

          ~,OOO
          g"lIom


          OSM           BLM            NPS              BOR                        FWS                   BIA                USGS
2005 Baseline Needs to be Adjusted

USGS, BOR, and the U.S. Fish and Wildlife Service (FWS) all submitted flawed data
that affected the FY 2005 baseline. If the errors we identified were to be corrected in
FAST,we estimate the baseline
                                                    Estimated Increase in Petroleum             Fuel Consumption
would be reduced from the re-                                        Based on Known Errors

ported 18.7 million gallons of                              18,716,2SS
                                                              gallons

petroleum consumed to 14.3                                                                          14,292,10S
                                                                                                     gallons

million gallons.

001 told us both USGSand FWS
reported revised baseline pe-
troleum fuel data that would                 /------~-------
                                                    2005 Petroluem      Fuel            2005 Petroleum         Fuel
have reduced the 2005 base-                    Baseline in EO 13423 Fuel              Baseline After Corrections
                                                    Consumption   Report                    to Bureau Data
line, however the numbers
were never formally changed in
FAST nor in any reporting to DOE.


Bureaus Did Not Identify or Correct Obvious Data Errors


USGS
In FAST, USGSreports 7.7 million gallons of petroleum fuel used in the FY 2005 base-
line. Given that the consumption     amounts reported in FYs2004, 2006, and 2007 are
all less than 2 million gallons,
                                                    USGS Petroleum        Fuel Consumption           Reported in FAST
we concluded that the re-
                                            8,000
ported fuel consumption      for    '"c:
                                   "'C

                                    :Ji
                                    ::>
                                            7,000                                               6 Million        Gallon
FY 2005 is inaccurate.   Ac-        0
                                   .&:
                                   I-
                                            6,000                                               Reduction From

cording to USGS, 001 manag-        .='"c:   5,000                                                    2005 to 2006
                                   .2       4,000
ers are aware of this error but    '"
                                   \!l
                                            3,000

have not made a correction.                 2,000

                                            1,000

Neither 001 nor USGSwere                        0
                                                          2004                 2005          2006                2007
able to provide the actual
consumption    figure for FY 2005. Therefore, we used 1.8 million gallons in our esti-
mate of the petroleum fuel consumption               for FY 2005, the average consumption                                 for
FYs 2004 and 2006.
                                                                          BOR Petroleum            Fuel Consumption

BOR submitted the following petroleum-based                                               Reported in FAST


fuel consumption     data in gallons by fiscal year
for inclusion in FAST:


      2005     972
      2006     432,948
      2007     590,703
                                                                                  200,            2006            2007



When we spoke with BOR representatives,         they were able to provide documentation
that shows FY 2005 BOR petroleum-based         fuel consumption                          was actually 601,441 gal-
lons. Therefore, BOR under-reported       its petroleum consumption                              by 600,469 gallons in
FY 2005. We contacted both BOR and 001 managers to see if they know about the in-
consistency apparent in the FY 2005 data. No one was aware of the under-reported
amount before we pointed it out.



In FY 2007, FWS reviewed its reported data in FASTand concluded that it had under-
stated its FY 2005 petroleum-based      fuel consumption                  by 578,000 gallons. In a memo-
randum to 001, FWS identifies the mistake and states that correcting the error would
increase fuel consumption for FY 2005. When we contacted 001 representatives
about the revision, they told us that they had not received the FWS information                                            in
time to include it in the adjusted petroleum baseline.


Another Anomaly

BIA
BIA submitted the following petroleum-based           fuel consumption                          data in gallons by fis-

cal year for inclusion in FAST:                       BIA Petroleum Consumption                             Reported in FAST

                                                               7,COG
                                                       -8
        2002     1,394,331                             ::l"    6,GCC
                                                       "0
                                                       ~       ~,L'L'v
        2003    568,113                                ,EO
                                                        e
                                                       .2
                                                               ~,L'L'l'

        2004    0                                      ••'"'   .l,LLL

                                                               2.GCO
        2005    980,859
                                                               i,LvL
        2006     6,435,356                                          G
                                                                           2002          2003   2004     1O:J5   2006    2007
        2007     3,875,370

Given the range of numbers reported from FY 2002 through FY 2007, it is impossible to
determine if BIA over-reported      or under-reported           fuel consumption                         data. According
to BIA, the FASTSystem contains the best data available for its fuel consumption.          If
BIA's data is incorrect, an adjustment would clearly affect DOl's overall consumption
numbers.       However, we were unable to determine what the effect would be because
the data was so flawed.




               Alternative Fuel Consumption

Executive Order 13423 requires federal agencies to increase
alternative fuel consumption    by 10 percent annually. The increase
is measured relative to the prior year's alternative fuel consump-
tion levels.

001 reported that it did not meet its alternative fuel consumption
goal in FY 2006. However, in FY 2007, 001 reported a 58 percent
increase in alternative fuel consumption      from FY2005. This
reported alternative fuel consumption        data also appears flawed.

For example, the data in FASTshows approximately           1.2 million Gasoline Gallon
Equivalents (GGEs) of alternative fuel consumed while the quantity reported to
DOE was significantly less at 400,000 GGEs.


001 stated in a December 10, 2007 e-mail to DOE that the reported GGEs in FASTwere
incorrect and requested that DOE allow a significant adjustment to its FY 2005 alterna-
tive fuel figures, thus reducing reported consumption        by 800,000 GGEs. DOE accepted
the 800,000 GGE reduction as reasonable based on prior year trends. However, 001 did
not provide documenta-
                                             Alternative Fuel Consumption Reported
tion to support this ad-
                                        to DOE in the E.O. 13423 Fuel Consumption Report
justment.                              700
                                 'c"
                                "l:l
                                 III   600
Although we agree that           '"
                                 :;,
                                 0
                                       500
                                ~
the FASTdata appears            .5
                                       400
                                 '"
                                L&J
incorrect, we cannot con-       l!l
                                l!l    300
c1ude that the adjusted
                                       200
figures are a more accu-
                                       100
rate reflection of 001 al-
ternative fuel consump-                         2005           2006           2007

tion.
Alternative Fuel Anomalies Have Been Reported in FAST
    We reviewed the bureaus' alternative fuel data in FASTand found significant
    anomalies in the NPS, BIA, and BaR data. Excessive and unrealistic percentage
    increases in alternative fuel consumption          led us to believe that input errors in FAST
    are as prevalent for alternative fuels as they are for petroleum-based                      fuels.

    For example, NPS reported                           NPS LPG Consumption       Reported   in FAST
                                                              Increase from 2006 to 2007
    approximately    49,000 GGEs
    of liquid propane gas (LPG)                300
                                         '"
                                         "tl
                                         C                            470% Increase in
    consumed in FY 2006. In FY           :Ji
                                         :l
                                               250                    LPG Consumption
                                         o
    2007, it reported 279,000                                         from 2006
                                         ~     200
                                         .!:
    GGEs of LPG,which repre-             '"
                                         ~     150
                                         \:l
    sents a 470 percent increase
                                               100
    from the prior year. When
                                                50
    we reviewed NPS FASTdata
    for the number of vehicles
                                                               2006                      2007
    and corresponding    mileage,
    we could not identify a rea-
    sonable explanation for such a large increase from FY 2006 to FY 2007.

    We also noted questionable trends associated with BIA- and BaR-reported                              alterna-
    tive fuel data. For example, BaR reports that it increased alternative fuel consump-
    tion from 28 GGEs in FY 2005 to 4,263 GGEs in FY2007, a 15,000 percent increase.
    In the case of BIA, the Bureau reports a 5,000 percent increase in alternative fuel
    consumption     from FY 2005 to FY 2007, increasing reported consumption from 1,769
    GGEsto 88,481 GGEs.

    In addition,   it appears that BIA has misreported the types of alternative fuels con-
    sumed. For example, nearly all of BIA's alternative fuel consumption                        (1,680 of 1,769
    GGEs) in FY 2005 came from biodiesel.            However, BIA reported no biodiesel fuel for
    FY 2007. In addition, nearly all of BIA's alternative fuel usage in FY 2007 (85,927 of
    88,481 GGEs) came from E-85 ethanol (a mixture of 85 percent ethanol and 15
    percent gasoline), though BIA reported no E-85 ethanol consumption for FY 2005.

    We recognize that volumes for these two bureaus are small and that small in-
    creases in consumption can result in large percentage increases. We also recognize
    that due to the small numbers for FYs2005-2007, it is possible that the increases
    may be accurate, and bureaus may be using significantly more alternative fuel. At a
    minimum, however, data accuracy must be determined.




6
Recommendations
Because of the number and significance of the errors we found, we recommend 001:


=> Ensure bureau fleet managers perform an in-depth review of the FY 2005 FAST
   data for each bureau to ensure it is as accurate and reasonable as possible.

=> Request DOE make adjustments in the FASTSystem based on the results of the
   detailed analysis.


At this time, we do not believe 001 should review and adjust fuel consumption      data
for FYs 2006 or 2007. Although we did find some errors in FYs 2006 and 2007 data,
we suggest 001 and its bureaus conserve their limited resources and concentrate
their efforts on the FY 2005 baseline and data being reported for FY 2008 and be-
yond.


Scope and Methodology
We conducted our inspection to determine if 001 and its bureaus are meeting the
fuel consumption     requirements   of Executive Order 13423.


We concentrated      on petroleum-based   and alternative fuel consumption   data re-
ported in the FASTSystem from FY 2005 through FY 2007. In the cases of BIA and
USGSpetroleum-based       fuel consumption,   we reviewed additional data (FYs 2002-
2004) to get a better idea of how much fuel the two bureaus consumed over time.


We conducted limited tests of the FASTdata to identify misreported      consumption.      It
is likely that our limited procedures did not uncover all errors in the consumption
data.


001 reported no plug-in hybrid vehicles because they are not yet commercially avail-
able at a reasonable cost. According to DOE, the auto industry has plug-in hybrids
under development,     and they are hopeful the vehicles will become commercially
available by 2010.
                                                                              ii



           ~ort  Fraud, Waste,
           and Mismanagement
                Fraud, waste, and mismanagement in
                   Government concerns everyone:
                  Office of Inspector General staff,
                  Departmental employees, and the
                 general public. We actively solicit
                  allegations of any inefficient and
           wasteful practices, fraud, and mismanagement
               related to Departmental or Insular area
             programs and operations. You can report
                  allegations to us in several ways.




By Mail:                  U.S. Department of the Interior
                          Office of Inspector General
                          Mail Stop 4428 MID
                          1849 C Street, NW
                          Washington, D.C. 20240

By Phone:                 24-Hour Toll Free 800-424-5081
                          Washington Metro Area 703-487-5435

By Fax:                   703-487-5402




                                                            Revised   07/07
